          INSPECTOR GENERAL

                                                                                             IG-W-04\




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                        WASHINGTON, D.C. 20436

July 23,1999

MEMORANDlJM

TO:             Chairman
                                                 c:~~~~'     ~
FROM:            Acting Inspector General
                                                ~-"j ~/~
                                                       ~:>


SUBJECT:         inspection Report 05-99, Follow-up Review ofCommission 's Preparation       1'01' the   Ycar 2000

The Office or Inspector General (OIG) conducted a follow-up inspection to Audit Report 03-99 Evaluation
ofthe Commission 'v Preparationfor the Year 2()()() (Y2K) to assess the lnteruational Trade Commission's
(Commission) progress in Year Y2K activities.

The objectives of this inspection were to review the progress made by the Commission in implementing
recommendations and suggestions made in Report Number IG-03-99 and to identify areas wherein the
Commission could be more proactive to minimize disruption because of the Y2K issues.

OIG generally found that the Commission has made significant progress since the time or our audit. The
Director of Operations, as the Commission's Y2K official, was given the opportunity to comment on a draft
ofth is report and his comments were appropriately incorporated. Specific Iindings are contai ned in the report
and our suggestions for continued progress arc found on page 6.

Attachment

cc:     Commission
        Office Directors (Email distribution)
            OFFICE OF INSPECTOR GENERAL




Follow-up Review of Commission's Preparation for the Year 2000




                  Inspection Report IG-05-99




                                                Date: July 23, 1999
                                                                             Inspection Report IG-05-99




I. INTRODllCTION

The United States International Trade Commission (Commission) provides advice to the President and
Congress on tariff and trade matters, conducts investigations relating to the impact of imports on domestic
industries, and contributes to the development of U.S. trade policy. The Commission has approximately 388
employees and a fiscal year (FY) 1999 budget of approximately $45 million.

Since 1988, the Commission has automated essential agency functions and implemented an enterprise-wide
local area network. Consequently,the Commission reiies upon several information systems and its underlying
enterprise network to perform its mission. The Commission depends on information systems developed by
other Federal agencies to perform its financial responsibilities, pay its employees, and perform its personnel
management functions The Commission uses information-gathering systems from commercial organizations
for news and legal research. The Commission uses components that contain embedded electronics. The
electronics are found in the building infrastructure, telephone and fax systems, and in the audio-visual systems
used in the Commission's hearing rooms.

At 12:01 a.m. on January 1,2000, many computer systems, electronic devices and components that contain
embedded electronics could malfunction or produce incorrect information simply because the date has
changed. The year 2000 (Y2K) problem is rooted in the way dates are recorded and computed in many
computer systems and other electronic components. For the past few decades, systems have typically used
two digits to represent the year, such as "97" representing 1997. With this two-digit format, the year 2000
is indistinguishable from 1900, the year 200 I from 190I, and so on. As a result ofthis ambiguity, electronic
components and computer hardware, operating system software, application software, application programs,
and data that use dates to perform calculations, comparisons, or sorting may fail or generate incorrect results.

On January 1,2000, the ability of the Commission to accomplish its mission without disruption is at risk
unless the information systems and components on which the Commission depends are Y2K compliant.
Minimizing the impact of the Y2K problem on the Commission requires an organized managerial and
technological effort. Otherwise, the Commission may have to perform its work using manual methods,
processes, and procedures.


                                                       1
                                                                           Inspection Report IG-05-99

II. BACKGROUND

The Office ofInspector General (OIG) initially audited the Commission's Y2K activities in the winter of 1998
and submitted Evaluation ofthe ( 'ommission 's Preparationfor the Year 2000, Report Number IG-03-99 in
February 1999. That report found that the extent of the Y2K problem on Commission operations was not
documented or well understood and concluded that the Commission will likely experience some disruption
because of the Y2K problem The report recommended that the Chairman appoint a single Y2K official to
manage the Commission's Y2K activities. The report further recommended that the Y2K official:

        -- Ensure that all systems susceptible to Y2K problems have been identified;

        -- Assemble an integrated project team consisting ofa representative for each mission-criticalsystem;

           Develop a Y2K policy establishing the Commission's acceptable level of risk;

           Increase awareness of the Y2K problem among Commission employees, and

           Develop and implement a Y2K action plan.

This Inspection conducted in late June 1999 is a follow-up review to assess the Commission's progress with
regard to the earlier audit recommendations.

III. OBJECTIVES

The objectives ofthis Inspection were to:

        -- review the progress made by the Commission in implementing recommendations and suggestions
        made in Report Number IG-03-99, Evaluation ofthe ( 'ommission 's l'reparationfor the Year 2000;

        -- identify areas wherein the Commission must be more proactive to minimize disruption because
        of the Y2K problems.

IV. METHODOLOGY

Burke Consortium, Inc. (BCI) developed data-gathering templates for each recommendation and provided a
copy of these templates to Commission officials responsible tor each system. During the week of June 21,
1999, BCI met with each responsible official to:

           review the status of current remediation efforts;

           identify the scope of work performed since the previous review;

           identify the actions that remain to be completed; and

           identify the timeliness of the schedules tor completion.

In addition, BCl conducted random spot checks of components used in the Commission to assess the degree
ofY2K compliance.

                                                      2
                                                                              Inspection Report IG-05-99

v.   FINDINGS

The Commission has made significant progress since      the review conducted during the winter of 1998. The
Chairman designated the Director, Office of
Operations as the Commission's Y2K official. The                             FINDINGS
Y2K official established a Y2K Committee to
monitor overall Y2K progress and provide bi-                -The Commission has made significant progress.
weekly reports of progress to the Chairman. The
Y2K Committee completed a survey of each office             -The Commission has identified mission-critical
that identi tics the most important functions that          processes and associated information systems.
need to be protected from disruption due to Y2K
problems This survey identifies critical work               -The Commission has updated the inventory ofall
products that each office will have to produce              information systems and has completed
during January 2000, and the Y2K-vulnerable                 remediation ofmany mission-critical components.
systems that are used to prepare the products.
Information gathered during this survey served as           -The Commission has completed an Action Plan
the basis from which the Y2K Committee identified           with a Master schedule of Y2K events.
the Commission's critical business processes and
associated information systems.          The Y2K            -The Commission has begun high-level
Committee used the results of this survey to identify       contingency planning for all mission-critical
the Commission's mission critical "fi rst tier" and         processes.
"second tier" functions.

The Commission identified "first tier functions" as those that must operate during any potential disruption
or the agency may face serious adverse consequences. The Commission's first tier functions are: ( I) building
security, (2) payroll, (3) remediation of Y2K problems, and (4) basic communications. The Commission
identified "second tier functions" as those that are crucial to the Commission's long-term operations, but
during January 2000, potentially could be postponed in the event ofa massive disruption. The Commission's
second tier functions also include investigation and research activities that fulfill the agency's mission.

The Office oflnformation Services (OIS) completed an inventory of Commission software and hardware tor
Y2K review. The inventory listing reflects the remediation status of all systems and components. However,
a spot check revealed that some items which should be identified and tracked tor Y2K compliance were not
included in the current inventory listing. The items have been added to the inventory. Procedures are now
in place to ensure that system changes are Y2K compliant and added to the inventory upon installation.

OIS has completed remediation on all 400-plus personal computers (PCS) and many mission-critical
components A random spot check of components noted as compliant on the inventory list revealed that all
were compliant per manufacturer recommendations. The Office of Publishing (PUB) has completed
remediation on the entire publishing system.

The Commission provided a high-level Y2K Contingency Plan to OMB on June 15, 1999. Detailed
contingency planning for all first and second tier functions is scheduled to begin in July and be completed by
September. Detailed contingency plans will take into account three scenarios that correspond to major levels
of possible disruption: (I) The agency has no power and/or water, thus precluding use of the building; (2)
the agency has power, water, and PCS, but no network, communications (telephones, facsimile, e-mail), or
duplication capability (copiers, Docutech); and (3) the agency has power, PCS, copies, and the network
(including internal e-mail), but no external communications (telephones, Internet, facsimile, external e-mail).

                                                        3
                                                                           Inspection Report IG-05-99

For tier one functions, the Y2K Committee has tasked Director of Administration, Director of OIS and
Director of External Relations to develop a contingency plan based on the scenarios listed above.
Additionally, for tier two functions, the five Business Continuity and Contingency Planning team leaders (the
Directoroflnvestigations, the Director ofUnfair Import Investigations,the Director oflndustries, the Director
o f Tar iff Affairs and Trade Agreements, and the Director of External Relations) have been tasked to develop
a contingency plan for each business operation.

The Action Plan finalized on July 2, 1999 identifies remaining work, assigns target dates for completion,
assigns responsibility for completing remaining actions, and serves as the Commission's master schedule of
Y2K related actions. See Appendix A.

Follow-up reviews of the Commission's mission-critical systems were conducted in order to determine
progress since the review conducted during the winter of 199R. Significant progress has been made on all
mission-critical systems. A summary of eight systems is provided below.

        I. Accounting/Payroll/Personnel

       The Chief, Finance Division, Office of Finance and Budget(OFB) was contacted to obtain the status
       of this system. Roles and responsibilities between the OFB, the Office of Personnel, and the OIS for
       ensuring Y2K compliance of "non-standard" workstation hardware, software, and other components
       have been defined. OFB will serve as liaison with other government agencies for all components that
       are their responsibility as providers of accounting and payroll systems services to the Commission.
       OIS will service and maintain "non-standard" components, such as older 80486-based machines, that
       are the Commission's responsibility. OFB personnel are working with the providers of accounting,
                                           payrolI,and personnel system services,the Department of Treasury
                                           and the Department of Interior, to prepare contingency plans for
  "OFB personnel are awaiting             essential functions in the event that accounting, payroll, or
 instructions from tile Director of        personnel systems fail. These plans will include procedures for
 Administration to begin developing        taxing and mailing information in the event that these systems are
 formal internal procedures for
                                           not available. OFB personnel are awaiting instructions from the
 processing employee payroll. "
                                           Director of Administration to begin developing formal internal
                                           procedures for processing employee payroll. OFB personnel are
                                           awaiting receipt of new Y2K compliant software for the
       Government On-Line Accounting Link System, used to receive government bills, meet reporting
        requirements, and perform other financial-related functions. OFB personnel anticipate receiving and
        installing the new software by the end of July

        2. ITC Net

        The Chief, Information Systems Division and OIS Computer Specialist were contacted to obtain the
        status of this system. Roles and responsibilities for Y2K compliance have been assigned. An
        inventory of ITC Net hardware and software components has been prepared. Critical components
        have been identified. Renovation has been performed on most critical components, with the
        remainder scheduled to be completed by .J uly 30, 1999. Renovationof all components is scheduled
        to be complete by September 30, 1999. There will not be a continuity plan developed specifically
        for ITC Net. ITC Net services will be incorporated into continuity plans being prepared by the Tier
        2 business process owners.


                                                      4
                                                                    Inspection Report IG-05-99


3. PCS and COTS

The Chief, Information Systems Division and OIS Computer Specialist were contacted to obtain the
status of this system. Significant progress has been made since the initial review. Roles and
responsibilities for Y2K compliance have been assigned. The OIS has validated the inventory ofPCS
and commercial-off-the-shelf software (COTS), and has renovated all Dell PC hardware and ITC
standard software, with the exception of Microsoft Access 95, which will be upgraded to a Y2K
compliant version by August 30, 1999. The OIS does not plan to develop a continuity plan
specifically for PCS and COTS. Rather, PCS and COTS will be incorporated into continuity plans
being prepared by the Tier 2 business process owners.

4. Trade Database

The Director, OIS; Chief, Information Systems Division, OIS; Senior Database Manager, OIS; Trade
and Tariff Information Manager, Office of Operation; and Database Manager, OIS were contacted
to obtain the status of this system. Roles and responsibilities for Y2K compliance have been
assigned. An inventory ofTrade Database components has been developed, but spot checks revealed
that it is not complete. OIS personnel have renovated the hardware and software identified in the
inventory for Y2K compliance, with the exception of client software used for administration which
is planned to be purchased. OIS personnel have reviewed all Trade Database source code to ensure
it complies with the manufacturers' specifications to ensure Y2K compliance. Notification to non-
Commission users of the Trade Database wi II take place as part of the External Communications
Continuity Plan planned for development by the Office of External Relations. The OIS does not plan
to develop a continuity plan specifically for the Trade Database. Rather, the services provided by the
Trade Database will be incorporated into continuity plans being prepared by the Tier 2 business
process owners.

5. Electronic Document Imaging System

The Chief, Information Systems Division, OIS and Computer Special ist, OIS were contacted to obtain
the status ofthis system. OIS personnel have developed an inventory ofelectronic document imaging
system (EDIS) components, and identified the activities necessary to achieve Y2K compliance. Some
components can not be renovated to achieve Y2K compliance, although OIS personnel predict that
these components will not tail. Many of components for which Y2K remedies are available have not
yet been renovated, but OIS personnel plan to start renovation soon and complete renovation by
August I, 1999. OIS is in the process of contracting for a requirements study in order to accelerate
plans for EDIS replacement, although a replacement system will not likely be in place prior to January
2000. OIS does not plan to develop a continuity plan specifically for EDIS. Rather, the services
provided by EDIS will be incorporated into continuity plans being prepared by the Tier 2 business
process owners.




                                              5
                                                                           Inspection Report 1(;-05-99


        6. Electronic Publishing System

        The Director, Office of Publishing and Information
        Systems Specialist were contacted to obtain the status of "Key components of the electronic
        this system. Significant progress has been made since     publishing system have been tested
        the initial review. PUB has completed renovation of all   by the manufacturer or independent
        hardware and software associated with the Electronic      organizations, and have been
        Publishing System (EPS). Key components of the            certified to be Y2K compliant."
        electronic publishing system have been tested by the
        manufacturer or independent organizations, and have
        been certified to be Y2K compliant PUB plans to develop a continuity plan specifically for the FPS.

        7. PRISM

        The Senior Contract Specialist, AD was contacted to obtain the status of this system. The Office of
        the Director of Administration (AD) personnel have obtained a letter from the PRISM vendor
        certifying the Y2K compliance of PRISM software. OIS personnel renovated PRISM hardware to
        achieve Y2K compliance. AD personnel will use manual methods to perform PRISM functions in
        the event offail ure of the PRISM system.

        8. Building Infrastructure

        The Director, Office of Facilities Management (FM) was contacted to obtain the status of this system.
        Personnel have developed a matrix checklist indicating roles and responsibilities for Y2K
        compliance, and have obtained manufacturer certifications of Y2K compliance for all building
        infrastructure components. FM personnel continue to work with General Service Administration and
        Boston Properties, the building manager, to ensure the availability and safety of the building. FM
        personnel have begun to develop a contingency plan for the building infrastructure, including
        building security, and have identified additional resources that will be needed to implement the
        contingency plan from December 31, 1999 - January 9, 2000.

VI. CONCLUSIONS

                                        I. The Commission should continually update the inventory of
 "A spot check revealed that some       systems and components susceptible to the Y2K problem. OIS and
 items which should be identified       other personnel responsible for Y2K compliance need a certain
 and tracked for Y2K compliance         amount oflead time to complete renovation work. In the event items
 were not included in the current       are identified late, there may be insufficient time to complete
 inventory listing. "                   renovation and contingency planning.

                                      2. The Commission should continue to update the Commission
Action Plan as necessary. The current Action Plan should be used by Y2K Committee to measure actual
progress versus planned progress on tasks in order to drive action parties to closure and more accurately
predict when major Y2K-related efforts will be completed.

3. The Commission should continue to develop conti ngency plans for first tier and second tier functions. The
Y2K Committee should ensure that mission critical systems continuity plans are properly incorporated in first
tier and second tier contingency plans.

                                                     6
                                                                                  Inspection Report IG-05-99
                                                                                             Appendix A



                                    U.S. International Trade Commission


                     Year-2000 Action Plan
                                                  July 2,1999



Strategy

Virtually all of the Commission's systems are commercial, off-the-shelf systems. Thus, our
situation is unlike that of agencies with custom-built computer systems and their own
programmers. The Commission must rely on the vendors of our commercial systems for fixes and
assurances ofY2K-compatibility; whether the vendors truly can guarantee compatibility is largely
beyond the Commission's control. I The Commission's remediation effort focuses on applying the
"patches" or upgrades recommended and provided by vendors. The Commission is well along in
applying vendor-recommended upgrades and patches. All PCs and almost all network hardware
are already upgraded. The Commission has developed an inventory of all vulnerable systems, that
has been cross-checked for completeness by a survey 0 f all offices. Commission staff are working
their way down this list in rough priority order.

Our assessment of the risk is that the Commission will likely experience some disruption during
the first few weeks of January 2000. If publ ic services outside the Commission's control (c.g.,
power, telephone systems) do not fail, the expectation is that most internal systems can be
working within a week, with the likelihood that a few systems will have to be replaced or require
extensive work lasting up to a month. The Commission is developing and will use business
continuity (contingency) plans, which will involve manual or other work-arounds, to deliver, or if
appropriate delay, critical work products until problems can be fixed.

The Commission has considered whether taking additional steps would guarantee Y2K
compliance. The Commission could hire contractors to perform extensive system testing.
However, that course of action would likely be extremely disruptive to current operations, very
expensive, and in the end would not guarantee compliance." Currently, additional funding for
Y2K remediation is not anticipated.




     "One aspect of this is that vendors of some key software products have only very recently issued Y2K-
compliant versions. This is one reason that remediation efforts are expected to run right up to the last minute.
    1 For example, to fully test a complex system might typically require full-scale simulation of the Y2K date

changeover. Should there be a problem that crashes the system, current work would be interrupted, unless
substantial, additional funds were provided to operate a fully redundant operational system during the test or
perform all testing outside work hours.
                                                                     Inspection Report IG-05-99
                                                                              Appendix A



Organization of this plan

This plan is organized generally along the lines of the General Accounting Office's guidelines for
Y2K planning, Year 20{)O Computing Crisis: An Assessment Guide (GAOl AIMD-10.1.14 )(GAO
Assessment Guide) , which defines 5 phases of remediation:

       Awareness

       Assessment

       Renovation

       Val idation, and

       Implementation.

Based on the already-approved High-level Business-Continuity and Contingency Plan (BCCP), this
plan also begins to specifically formulate a management-level BCCP. This planning is necessary
because many processes depend on internal or external Y2K-vulnerable system that may fail in
January, 2000, in spite of our best remediation efforts, The GAO-recommended format for this
planning has been followed.

Finally, this plan specifically incorporates a master schedule of Y2K-related events and an
inventory of Y2K-vulnerablc systems has been incorporated by reference.



Assignment of responsibilities

By memorandum C071-W-006 of January 27, 1999, the Chairman assigned the Director of
Operations (Director) as the Commission's Y2K Official with overall responsibility for Y2K
planning and remediation. The Director is assisted by a Y2K Committee that includes
representatives of organizations with major Y2K responsibilities-particularly the Office of
Operations' Office of Information Services and the Office of Administration-as well as of the
General Counsel, the Inspector General and the Office of External Relations.

The Director is responsible for biweekly Y2K status reporting to the Chairman, as well as
quarterly follow-up reporting for the IG's Y2K audit recommendations, and periodic reporting to
the Office of Management and Budget.

The Director is also responsible for obtaining budgetary and resource support for Y2K
remediation as necessary, and for leading the education and awareness effort among Commission
employees.



                                                 2
                                                                               Inspection Report IG-05-99
                                                                                       Appendix A



The Director assigned a working group to conduct a program-office survey to assess Y2K
vulnerabilities and business priorities (sec below), and has established a biweekly meeting schedule
(alternate Tuesdays) for the Y2K Committee.

The Office of Information Services (OIS) is generally responsible for developing systems
inventories and for remediation work for Commission information systems (excluding Publishing);
the Office of Administration is responsible for those functions with respect to building services,
out-sourced personnel, payroll and accounting systems, and Publishing information systems.

The Director of External Relations is responsible for organizing contacts, facilitating cooperative
agreements, and communications with outside customers, Congressional oversight and funding
committees, business partners, and the public concerning all aspects of Y2K planning and impact.

Office Directors arc responsible for making information and resources required for assessment
and remediation efforts available to the Director and the Y2K Committee. Office Directors are
also responsible for making sure their staffs arc aware ofY2K issues that may affect them, and
that they follow any Y2K-related guidance issued by the Director.

Business-process managers J are responsible for assessing the criticality of each of their
operations' deliverables to customers, and, where necessary, for forming BCep teams to
develop and test plans for continuation of operations, in the event that one or more systems
fail (contingency planning).


Y2K remediation planning

The following topics track the steps recommended in the GAO Assessment Guide. The adviee
provided in the GAO Assessment Guide was tailored to the Commission's needs because the
guide contains a comprehensive list of tasks which arc intended to cover the full range of diverse
Federal agency systems. Specifically, the guidance was tailored to the Commission's
environment of: small scale of operations; no large-scale "customized" systems; and relatively
small impact on the public of short-term (one month or less) interruption of one or more of our
operations.




      I Business process managers are the lead officials for the Commission's five Strategic Plan operations, plus the

critical processes identified as 'Tier I" priorities in the section below on contingency planning.

                                                          3
                                                                  Inspection Report IG-05-99
                                                                          Appendix A



Y2K problem awareness

The awareness program within the Commission comprises the following elements:


       Define the Year-2UOO problem and its potential impact on the Commission. This step is
       complete in theform ofthe Inspector General's Report Evaluation ofthe Commission's
       Preparationsfor the Year 2UUU Report No. IG-3-99(IG Y2K Report 03-1)/)) and
       associated program management responses.

       Designation ofthe Y2K Official andformation ofa Y2K Committee representing key
       technical and management executives throughout the Commission. This step is complete.

       Meet with all Commission managers to brief them on the nature ofthe problem, outline
       Commission plans [or remediation, review their critical mission requirements. risks and
       priorities. and discuss alternativesfor coping with the problem. The all-managers
       meeting took place in March. 1999; the office-by-office impact survey was conducted
       during March and April. 1999.

       Brief this plan to the IRM Steering Committee and the Budget Committee. Modify plan in
       light of comments received. This process will be completed by July 9, 1999.

       Advise Commission managers and staff of likely impact of Y2K remediation decisions on
       their operations. This information will be based on evaluation of the business-impact
       material gathered in the manager survey, combined with technical assessment of the costs
       and prospects for replacement or renovation of relevant Y2K-vulnerable systems,
       alternatives for alternative processing or work-arounds like rescheduling, and
       Commission-wide priority ranking of remediation projects. The responsibility for this
       process is with the BCCP Communications Team (to be formed), and the target for
       completion of this process is September, 1999.

       Advise outside customers, suppl iers and other business partners of the impact on service
       delivery or other change in Commission business practice, schedules, etc. contemplated as
       a result of Y2K remediation. The responsibility for this process is with the BCCP
       Communications Team, and the target for completion of this process is tentatively
       October, 1999.

       Communicate to all Commission staff the plans and guidance for changes in procedures
       that are planned as part of Y2K remediation, and communicate to managers contingency
       plans for business continuation in the event of unanticipated or uncontrollable (external)
       failures of Y2K-vulnerable systems. This process will be the responsibility of BCCP
       Teams and will occur from November, 1999 through February, 2000, as required.



                                                4
                                                                               Inspection Report IG-05-99
                                                                                       Appendix A



Assessment of vulnerable systems and business risks

Commission IT and administrative services staff have been working for some time to renovate or
replace Y2K-vulnerable systems that are obviously critical to Commission operation, like desktop
PCs, lTC-Net servers and networking devices, and the telephone system. Progress on these
systems is reflected in the systems inventory attached to this plan, in the IG Y2K Report 03-99,
and in Commission reports to Federal oversight agencies. As of June, 1999, remediation on well
over 90 percent of systems has been completed.

To assure that other systems that are important to the Commission's mission are identified and
targeted for priority remediation, a survey of all offices was conducted in April, 1999, and a fcw
systems were added that the wcre initially missed in earlier inventories.

The complete inventory of systems has been reviewed and a Y2K status assigned to each item.
The status is either "Compliant" (remcdiated) or "Noncompliant." For each noncompliant item, a
renovation date has been assigned, or it has been classi fied as "To be abandoned" or "Low
priority" (meaning it may be abandoned without serious consequence ifit fails in 2000.)

The total number of noncompliant items as of June 18, 1999, was 45, with 21 of those scheduled
for remediation (i.e., not to be abandoned or "low priority). Only 5 items are scheduled to be
renovated after July 31, 1999, and of those, only I-the Treasury Electronic Certification System
operated by Finance & Budget,-is a critical system.


Renovation of vulnerable systems

"Renovation" means fixing, replacement or retirement of systems. The Commission has been
renovating systems for over a year, based on common-sense priorities and the systems previously
identified as "mission-critical" for purposes of security planning. 4 Basic infrastructure and widely
used applications were identified as priorities, so the Commission has been working with vendors
to fix, upgrade or replace the obvious systems prior to doing a complete analysis of priorities.
For example, network file and print servers were upgraded to Y2K-compliant versions of Banyan
VINES, an upgrade to a Y2K compliant version of our main desktop application (WordPcrfect)
was completed, and all individual PC's were made compliant.



    4 EDIS and the "ITCNet" were previously identified as critical systems for security planning purposes.

"ITCNet" comprises the basic computer infrastructure of network connections, servers, printers, and individual
PC's, as well as the lntcrnct connection including the firewall. It docs not, however, include any of the
applications supported by this infrastructure, like word processing, databases, spreadsheets, e-mail, Internet access,
T&A processing, ctc., many of which clearly arc crucial to Commission operations. The Commission has been
reporting to OMS and GSA on this definition of "mission critical systems", though this was modified in the latest
(February, 1999) report to include the Tariff & Trade DataWeb and the 001 T&A system, in light of the IG's
recent audit recommendations. However, a broader definition of "mission-critical systems" is needed, based on
input from Commission business managers on what systems support their "critical" dclivcrablcs,

                                                          5
                                                                 Inspection Report IG-05-99
                                                                         Appendix A



Even for the obviously important systems, however, a significant impediment to renovation has
been and continues to be the slowness of delivery by our vendors and suppliers of fixed product
versions or software "patches." For example, a stable version of Microsoft Windows NT Server
software, on which several other systems depend, including our Internet firewall, our Lotus Notes
applications (including the Sunset information page and the Intranet), and our main Internet Web
page (http://www.usitc.gov.) is still unavailable. The expectation is that required upgrades will be
forthcoming soon, but all delays may add to the "year-end rush."

Principal outside services vendors have been contacted, like PEPCO (electrical power), Bell
Atlantic (telephone and local-service access to the Internet), and the Department of the Interior
(personnel, payroll and accounting sysrcms.) They have responded with varying degrees of
assurance that they will be able to provide continuous service. Where there is less than a full
commitment to continued service, it is difficult to estimate how much is real uncertainty and how
much is legal hedging. Obviously, planning has incorporated scenarios in which some or all of
these services arc interrupted.

To provide marc specific and timely guidance on renovation, the Commission's master schedule
showing target completion dates for each system is maintained on the Intranet. Here Commission
employees can monitor progress on items they depend on.



Validation (testing)

Both Government and private-sector sources indicate that thorough testing of systems to assure
Y2K compliance is costly, complex and time-consuming. The Gartner Group, a leading IT
consultancy, estimates that seventy percent of all Y2K compliance expense can be consumed in
testing. The GAO suggests that some agencies may need "over a year to adequately validate and
test converted or replaced mission-critical systems." They also suggest that "in some instances,
agencies may not be able to shut down their production systems for testing, and may thus have to
operate parallel [duplicate] systems ..." 5

There arc no current plans to conduct extensive testing, as this would likely be extremely
disruptive to current operations, very expensive, and in the end would not guarantee compliance.
In addition, where other agencies may need more extensive testing in part because their systems
are unique and highly customized, with programming code developed by the agency itself, or with
contractor support, the Commission does not have this same need. Such systems will typically
take a long time to fix, so the risk is greater that an outage in January, 2000, would be an
extended one. Furthermore, if an agency is the only user of a system, it bears the full burden of
loeating and repairing the problem. In contrast, virtually all of the Commission's systems are "off-
the-shelf', mainstream eommercial products. The vendors arc doing the testing, and if the
systems do fail next January, contacts with their many customers will let them quiekly find all


    5   GAO/AIMD-IO.1.14, p. 16.

                                                 6
                                                                   Inspection Report IG-05-99
                                                                            Appendix A



variations of any problems, and fix them. For users of commercial products, therefore, the need
for testing is less.

Notwithstanding the above, some basic "roll-forward" testing was conducted of our PC
configurations. Once BCCP Teams have focused on the systems that they are relying on for
contingency operations to deliver Ticr-l and Tier-2 products and services, additional testing may
be performed.


Implementation

The GAO Assessment Guide lists implementation as a step separate from renovation and testing
(validation) because of the assumption that Y2K-compliant systems will be developed and tested
"off-line" (in isolation from the regular production environment.) Implementation is the step of
integrating the renovated, tested systems back into the rest of the operational network. At the
Commission Y2K-updated systems have been continuously implemented as part of the
renovation process. The upgraded network servers arc in production, as arc renovated desktop
PCs. Data Web components have been updated in pieces as software "patches" have become
avai lable. Thus, there is no need for any separate implementation phase in the Commission's
remediation plan.



Business continuity and contingency planning

Business-continuity or contingency planning (hereinafter "contingency planning") is planning for
delivering critical Commission outputs to customers if information systems fail in spite oj'
remediation efforts, or if external business partner systems on which critical Commission outputs
depend fail, or if public infrastructure systems-power, transportation and the like-fail. The aim
of contingency planning is to "safeguard an agency's ability to produce a minimum acceptable
level of outputs and services in the event of failures of internal or external mission-critical
information systems and services." I> (Emphasis in the original.)

The General Accounting Office has provided a model for contingency planning in its Year 2000
Computing Crisis: Business Continuity and Contingency Planning (GAO/AIMD-IO.I.19.) As
with their remediation guidance, this model "provides a conceptual framework for helping large
agencies to manage the risk of potential Year 2000-induced failures ... "(Emphasis added.) This
guidance will thus be considerably adjusted to fit the Commission's environment. The first
adjustment is that this plan combines both remediation and contingency planning in a single
document, and the Y2K Committee will manage both processes.




    (, GAO/AIMD-IO.1.19,   at   p.1.

                                                7
                                                                          Inspection Report IG-05-99
                                                                                    Appendix A



It is important to emphasize that, even more than for remediation planning, contingency planning
can only be done by managers and domain experts familiar with the critical business processes,
and not by technical and support staff. This means, for example, that contingency planning for
Title VII investigations must be led by the Director of Investigations, with significant insights
from other offices that are directly involved and the staff most experienced with these
proceedings.

GAO defines four phases of contingency planning:

          Initiation.-Includes establishing a work group, developing a high-level plan and master
          schedule, identifying critical business outputs, and obtaining executive support;
          Business impact anaIysis.-Defining various Year-2000 failure scenarios, identify detailed
          dependencies on internal external systems for each critical output process, and define
          minimum acceptable levels of output for each critical process;
          Contingency planning.-Includes making and documenting a separate plan for each
          critical output, defining event "triggers" that will activate the plan, and establishing a
          business resumption team and roles for each process; and
          Testing.-Includes developing and documenting test plans, preparing and executing tests
          against major disaster scenarios, and updating plans to correct problems uncovered.

This Plan covers only the Initiation phase of our contingency planning, since the other phases will
be conducted by project teams responsible for producing the identified critical business outputs.
The plans developed by the project teams will be added to this document (as separate
attachments) at the end of each phase (identified in the master schedule, below).



Initiation

For the Commission's environment, the key "dcliverablcs" of this phase of contingency planning
are (I) identifying critical Commission outputs, and (2) for each such output, assigning a team to
be responsible for contingency planning for the related process.

The Y2K Committee has conducted its analysis of critical outputs, and forwarded a
recommendation to the Chairman on May 24, 1999 in OP- W-022 (available for viewing on the
Intranet). The Chairman approved the recommendation on May 25.

This High-Level BCCP identified some functions that must operate during any potential
disruption or the Commission may face serious adverse consequences. Those functions, called
"first tier functions," are: (I) building security, (2) remediation of Y2K problems, (3) basic
communications, and (4) payroll.' Building security would include the protection of the physical
plant, the Commission's personnel, and the Commission's information resources. The basic


    7   The numbers do not indicate priority among the four items, as each is viewed as of primary importance.

                                                          8
                                                                    Inspection Report IG-05-99
                                                                            Appendix A



communication plan would primarily involve informing employees about whether they should
come to work and about other matters of concern, but it would also involve assisting customers
(especially those with urgent needs, such as a Senator asking for data or a judge for pleadings,
under a tight deadline) and informing them about the status of the Commission's proceedings.

The "second tier" of functions includes the investigation and research activities that fulfill the
Commission's mission. Second tier planning will address Commission operations as they are set
out in the Strategic Plan: import injury investigations, intellectual property-based import
investigations, research program, trade information services, and trade policy support. Those
functions are crucial to the Commission's long-term operations, but during January 2000
potentially could be postponed in the event of a massive disruption such as that resulting from a
loss of building power or water for an extended period. Proceedings subject to statutory
deadlines that thc statute does not explicitly allow to be extended are distinguishable in terms of
urgency from those that are not so subject, as the entities (courts, Congressional committees, etc.)
that impose deadlines in the latter proceedings may be approached for extensions of time.
However, for the purposes of contingency planning, both types of proceedings are viewed as
appropriate for inclusion in tier two. The plan does not specify a third tier; any activities other
than those in the first and second tiers will not require any formal contingency plan within the
basic parameters.

Once functions have been prioritized as described above, the next step is conducting contingency
planning. With respect to the functions in the first tier, planning will essentially consist of finding
a way to perform them even if disruption precluded use of the Commission building.

Contingency planning for the second tier functions is likely to be more elaborate. Because the
possible disruption could take several forms (e.g., the Commission could have power but no
telephones, or personal computers (PCs) but no network), contingency planning will take into
account a variety of scenarios based on different Ievcls of disruption, and lead to plans that
address the steps to take if faced with each scenario. The scenarios include: (1) the Commission
has no power and/or water, thus precluding use of the building; (2) the Commission has power,
water, and PCs, but no network, communications (telephones, facsimile, E-mail), or duplication
capability (copiers, Docutech); and (3) the Commission has power, PCs, copiers, and the network
(including internal E-mail), but no external communications (telephones, Internet, facsimile,
external E-mail).

BCCP team leaders for the identified "Tier I" (most critical) and "Tier 2" (critical) functions have
been identified and were tasked on June 28 with conducting the remaining phases of contingency
planning. As shown in the master schedule, the Y2K committee will review documents developed
by the BCCP team leaders at the end of each phase. At the end of the final phase the Y2K
committee will approve the BCCP final plans. These documents will then be added to the Action
Plan as an attachment. Deadlines associated with the contingency planning process are
highlighted in the master schedule. The team leaders associated with each function are listed
below.


                                                   9
                                                                     Inspection Report IG-05-99
                                                                             Appendix A




Function (Tier)                                          BCep team leader

Building security (I)                                    Director of Administration

Remediation of Y2K problems (I)                          Director, Office of lnformation Services

Basic communications ( I)                                Director, Office of External Relations

Payroll (I)                                              Director of Administration

Import injury investigations (2)                         Director, Office of Investigations

Intellectual property-based investigations (2)           Director, Office of Unfair Import Investigations

 Research program (2)                                    Director, Office of Industries

Trade information services (2)                           Director, Office of Tariff Affairs and Trade
                                                         Agreements

Trade policy support (2)                                 Director, Office of External Relations




Master schedule ofY2K-related events


 Date I           Event                                      Responsibility                   Status
 1/27/1999        Chairman assigns Director of               Chairman                         Completed
                  Operations overall responsibility
                  for Y2K planning and
                  remediation (C071-W-006)

 2/23/1999        First biweekly status report to the        Rogowsky                         Completed
                  Commission (OP-W-OIO)

 2/25/1999        OMB Quarterly Status Report                Rogowsky                         Completed

 3/1/1999         Y2K Project Team ("Y2K                     Rogowsky                         Completed
                  Committee") formed (first
                  meeting held)

 3/3/1999         Biweekly status report to the              Smith (for Rogowsky)             Completed
                  Commission (0 P-W-016,
                  3/5/1999)

 3/10/1999        "Y2K Awareness" meeting of all             Spencer/Olsavsky (for            Completed
                  Commission managers as a                   Rogowsky)
                  group


                                                        10
                                                            Inspection Report IG-05-99
                                                                    Appendix A




Date I      Event                                   Responsibility             Status
3/16/1999   Biweekly status report to the           Rogowsky                   Completed
            Commission (OP-W-OI4)

4/2/1999    Biweekly status report to the           Rogowsky                   Completed
            Commission (OP-W-OI7a)

4/9/1999    Compilation of survey of all            Spencer/Richards           Completed
            Commission managers to identify
            critical business processes and
            their dependencies on Y2K-
            vulnerable systems

4/16/1999   Biweekly status report to the           Rogowsky                   Completed
            Commission (OP-W-OI7b)

5/3/1999    Biweekly status report to the           Rogowsky                   Completed
            Commission (OP-W-OI8)

5/11/1999   Identify core business processes        Y2K Committee              Completed
            (BCCP 1.3)                                                         (Y2K
                                                                               meeting)

5/17/1999   OM B Quarterly Status Report            Rogowsky                   Completed

5/17/1999   Biweekly status report to the           Rogowsky                   Completed
            Commission (OP-W-021)

5/24/1999   Y2K Committee proposal for              Rogowsky, Y2K Committee    Completed
            remediation and contingency                                        (OP-W-022)
            planning strategy to Chairman,
            indicating business risks
            associated with recommended
            approach.

5/25/1999   Agency Head accepts risks               Chairman                   Completed
            associated with proposed Y2K            (Rogowsky/Bardos)
            Committee remediation plans

6/1/1999    Complete inventory of Y2K               Director, Information      Completed
            vulnerable systems with                 Services
            remediation status and dates

6/211999    Inventory and Commission                Director, Information      Completed
            strategy posted on USITC                Services
            Intranet and staff requested to
            review and comment




                                               II
                                                                 Inspection Report IG-05-99
                                                                         Appendix A




Date I        Event                                   Responsibility              Status
6/1/1999      Biweekly status report to the           Rogowsky                    Completed
              Commission

6/15/1999     BCCP "high-level plan" due to           Rogowsky                    Completed
              OMB per OMB 99-16

6/15/1999     Biweekly status report to the           Rogowsky                    Completed
              Commission

6/28/1999     Contingency planning meeting to         Rogowsky                    Completed
              assign team leaders of core
              business processes and task them
              with BCCP. (BCCP 1.4)

6/28/1999 -   Conduct and document BCCP               BCCP Team Leaders
7/23/1999     Business Impact Analysis (BCCI~
              VI)

6/30/1999     Status report on IG-03-99               Rogowsky                    Completed

6/30/1999     Biweekly status report to the           Rogowsky                    Completed
              Commission

7/1/1999      Status report on remediation            Olsavsky
              progress (systems not yet
              remediated)

7/2/1999      Action plan approved by Y2K             Rogowsky
              Committee

7/9/1999      Overall Y2K Plan briefed to             Rogowsky (Smith)
              IRM/SC and Budget Committee,
              and published to the Intranet

7/15/1999     Biweekly status report to the           Rogowsky
              Commission

7/30/1999     Review and provide feedback to          Y2K Committee
              Team Leaders on Business
              Impact Analyses

8/4/1999      Biweekly status report to the           Rogowsky
              Commission

8/211999      Status report on remediation            Olsavsky
              progress (systems not yet
              remediated)




                                                 12
                                                               Inspection Report IG-05-99
                                                                      Appendix A




Date'         Event                                 Responsibility                 Status
812/1999 -    Conduct and document                  BCCP Team Leaders
8127/1999     Contingency Planning (BCCP
              3.0)

8/15/1999     OM B Quarterly Status Report          Rogowsky

8/18/1999     Biweekly status report to the         Rogowsky
              Commission

9/1/1999      Biweekly status report to the         Rogowsky
              Commission

9/1/1999      Completion of all remediation         Olsavsky
              activities

9/3/1999      Review and provide feedback to        Y2K Committee
              Team Leaders on Contingency
              Plans

9/6/1999 -    Conduct and document BCCP             BCC P Team Leaders
10/111999     Testing (BCCP 4.0)

9/15/1999     Biweekly status report to the         Rogowsky
              Commission

10/1/1999     Biweekly status report to the         Rogowsky
              Commission

10/111999     IG-03-99 Closure Memorandum           Rogowsky

1012/1999     Y2K Committee approves BCCP           Rogowsky
              final plans

10/15/1999    Biweekly status report to the         Rogowsky
              Commission

11/111999 -   BCCP leader for "Basic                Leahy
11/30/1999    Communications" communicates
              with customers, business
              partners, and staff regarding
              Y2K impact forecast

11/1/1999     Biweekly status report to the         Rogowsky
              Commission

11/15/99      OMB Quarterly Status Report           Rogowsky

11/15/1999    Biweekly status report to the         Rogowsky
              Commission


                                               13
                                                                    Inspection Report IG-05-99
                                                                              Appendix A




Date I          Event                                   Responsibility                  Status
 12/1/1999      Biweekly status report to the           Rogowsky
                Commission

 12/15/1999     Biweekly status report to the           Rogowsky
                Commission

 1/4/2000       Biweekly status report to the           Rogowsky
                Commission

 1/19/2000      Final] Biweekly status report to the    Rogowsky
                Chairman

 IDeadline for deliverables.
2 Ifwarranted, the work of the Y2K committee and the biweekly status reports will continue beyond this

date.



Inventory of Y2K-vulnerable systems posted on the USITC Intranet




                                                   14
